         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Special Report
Allegations of Potential Fraud and
Mismanagement of a Smart Grid
Investment Grant Program Award




OAS-RA-14-03                      February 2014
                                 Department of Energy
                                     Washington, DC 20585

                                       February 19, 2014


MEMORANDUM FOR THE DEPUTY ASSISTANT SECRETARY FOR ADVANCED GRID
               INTEGRATION, OFFICE OF ELECTRICITY DELIVERY AND
               ENERGY RELIABILITY


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                           for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Special Report on "Allegations of Potential Fraud
                         and Mismanagement of a Smart Grid Investment Grant Program
                         Award"

BACKGROUND

As part of the American Recovery and Reinvestment Act of 2009, the Office of Electricity
Delivery and Energy Reliability (OE) received about $4.5 billion to modernize the electric grid,
with about $3.5 billion allocated to the Smart Grid Investment Grant (SGIG) Program. The
SGIG Program was intended to enable measurable improvements from accelerated achievement
of a modernized electric transmission and distribution system. To accomplish the objectives of
the SGIG Program, OE awarded 99 recipients financial assistance grants.

Under the SGIG Program, Progress Energy Service Company (Progress Energy) received a $200
million grant to accelerate deployment of technologies to increase efficiency and demand
response across its enterprise. As part of the award, Progress Energy partnered with
International Business Machines (IBM) to manage the project and its associated tasks. Progress
Energy provided $320 million in funding, bringing the total project cost to $520 million over a 6-
year period. As of December 2013, Progress Energy had been reimbursed about $191 million.

The Office of Inspector General received an allegation that Progress Energy had mismanaged the
SGIG award and submitted potential false claims to the Department of Energy. Although other
assertions were made regarding the award, we elected to address two areas of the allegation: (1)
that Progress Energy had fraudulently submitted reimbursement requests for costs incurred prior
to the award, and (2) that contracted services with IBM contained no associated deliverables.
We initiated this review to examine the circumstances surrounding those allegations.

RESULTS OF INQUIRY

The allegations we evaluated were not substantiated. While we confirmed that Progress Energy
had submitted reimbursement requests for costs incurred prior to the date of the award, we
determined that this practice had been specifically allowed by the Department. Additionally, we
reviewed the task orders supporting the work to be performed by IBM. We found that the task
orders contained a number of deliverables. Nothing came to our attention to suggest that the
specific deliverables contained in the task orders to IBM were inadequate or were not
appropriately documented.

To satisfy our objective, we reviewed the terms and conditions of the award and the project
objectives. We also reviewed specific reimbursement submissions relating to the IBM services
provided under the award, the contracts between Progress Energy and IBM, and related
statements of work and task orders.

                                       Pre-award Costs

The allegation that Progress Energy had fraudulently charged the Government for labor costs and
other expenses that had been incurred prior to the grant award period was not substantiated.
While Progress Energy was awarded the SGIG funds in December 2009, we found that the
award terms and conditions allowed Progress Energy to recoup costs incurred on or after August
6, 2009, that were otherwise allowable. Further, OE Program officials asserted that it routinely
incorporated language into all SGIG awards permitting awardees to claim award related costs
incurred prior to the actual award date.

As part of our review, we selected reimbursement submissions for costs claimed by Progress
Energy for personnel costs totaling about $5.5 million for the period of September 2009 through
April 2010. Based on supporting documentation provided to the Department, the labor costs that
were charged to the award were within the authorized period. We also sampled reimbursement
submissions made by Progress Energy for IBM services from August 2009 through January 2010.
We found that the invoices submitted encompassed work that originated on August 17, 2009.
Further, time charges were clearly annotated with each individual's approved hourly rates, hours
worked on the project, and dates the work was performed. Although the invoices showed that
technically these charges were incurred prior to the award date of December 24, 2009, as
previously noted, the Department authorized Progress Energy to recoup costs incurred as of
August 6, 2009. Therefore, we found these charges to be within the allowable timeframes of the
award. Further, we reviewed the contracts between Progress Energy and IBM. We found that the
statement of work referencing the SGIG tasks had been signed by both parties on August 14,
2009, after the date that the Department authorized charges to be incurred.

                  Contractual Relationship between Progress Energy and IBM

The allegation that Progress Energy had paid IBM for services under the award with no apparent
deliverables was also not substantiated. We obtained and reviewed the contract between
Progress Energy and IBM for work related to the project. Progress Energy provided the master
agreement in addition to the associated statements of work and task orders for the project. We
found that the agreements included detailed descriptions of the work to be undertaken by IBM, to
include the project scope relating to Progress Energy's award as well as a section on the
acceptance procedures for deliverables. We also found that the associated task orders, while
varying in details and complexity, generally contained completion criteria, an estimated
schedule, and a summary of charges to be incurred.



                                               2
We reviewed associated task orders between Progress Energy and IBM, concentrating on work
completed in 2009 and 2010. The task orders reviewed generally contained detailed information
regarding deliverables. For example, one task order was written on a fixed-fee basis for two
deliverables. The supporting documentation stated that the fee would be paid based on each
deliverable and was supported with guidelines on the purpose, content, and delivery of the
specified items. Another task order contained three separate activities to be conducted and listed
assumptions, key activities, and deliverables for each activity.

In addition, while we also found that some of the task orders had not contained specific
deliverables, the agreements had noted general tasks and fulfillment requirements. Specifically,
some agreements contained information about support services to be provided, such as
information technology support and project management services. We concluded, based on our
experience with similar agreements, that these types of task orders would not necessarily have
had firm deliverables. Rather, the specific task orders had been written in a way that described
the services to be provided under the agreement, to include general support services to be
performed, the individuals working on the project, and invoicing procedures.

                                      Additional Assertions

The complaint received by the Office of Inspector General also contained other assertions
regarding Progress Energy's SGIG project. Each of those specific allegations and our actions
and/or conclusions regarding the allegations are explained in detail:

   •   The SGIG project lacked support and direction from Progress Energy management.
       Based on the documentation provided by Progress Energy regarding direction of the
       project, correspondence between Department officials and Progress Energy, and the
       interviews we conducted with Department management, we found nothing that would
       have led us to suspect that the project lacked the necessary support and direction from
       Progress Energy. As such, we did not inquire further into this specific aspect of the
       allegations.

   •   IBM had not added value to the project and had taken 6 or 7 months to complete a task
       that should have only taken 1 week. As previously noted, we concluded that IBM
       performed work on the project under contracts or task orders that included either specific
       deliverables or general support tasks. Because these deliverables appeared to be
       reasonable and the fact that the Department had not detected issues with completion of
       the SGIG work by Progress Energy, we did not specifically inquire into this allegation.
       Our decision in this regard was also influenced by the passage of time and the difficulty
       of establishing/determining whether any given action completed by IBM would have
       added value to the overall project.

   •   Progress Energy used a standalone schedule instead of the required integrated schedule.
       This alleged violation of grant terms was not pursued because even if substantiated, it did
       not appear that it would have impacted the overall project. Further, based on the
       documentation submitted by Progress Energy and the Department's monitoring reports,
       no material issues had been identified regarding Progress Energy's ability to complete the
       project.

                                                3
   •   A senior official at Progress Energy owned a staffing company that was utilized as part of
       the project. The complainant noted that the staffing company was used regularly for
       work at Progress Energy. We performed preliminary inquiries into this area; however,
       we were unable to identify information indicating that a potential conflict of interest
       existed.

In summary, nothing came to our attention to indicate that the alleged problems existed or would
have adversely and materially impacted the overall performance of Progress Energy in satisfying
the terms of its SGIG grant with the Department.

CONCLUSION

We found that the Department had developed and implemented monitoring controls designed to
help ensure that the Progress Energy SGIG project progressed appropriately and that payments
were reasonable. Specifically, the Department placed Progress Energy on a reimbursement
payment system that required the entity to submit supporting documentation prior to being
reimbursed for costs incurred. We also found that the Department had completed annual site
visits for 2011, 2012, and 2013 to review Progress Energy's scope, cost, and schedule of its
SGIG project. Finally, we noted that Progress Energy had a strong incentive to control project
cost, schedule and performance in that it was responsible for funding over 60 percent of the total
cost of the SGIG project.

Based on these considerations and our review of information supplied by Progress Energy and
the Department, we did not substantiate the allegations made to the Office of Inspector General.
We appreciate the cooperation of your staff during this review.

cc: Deputy Secretary
    Chief of Staff




                                                4
                                                                 IG Report No. OAS-RA-14-03

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page

                                       http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
